®
BURFORD PERRY up

Brent C. Perry Partner
909 Fannin Street, Suite 2630 Telephone: (713) 401-9790
Facsimile: (713) 993-7739

Houston, Texas 77010
bperry@burfordperry.com www. burfordperry.com.

 

October 12, 2021

VIA ELECTRONIC FILING
Hon. Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: Waiver of Response to the Petition for a Writ of Certiorari in Ralph Lewis
uv. Power Research, Inc., et al., No. 21-494
Dear Mr. Harris,
Respondents Power Research, Inc. and Wanda Davidson hereby waive their right

to file a response to the petition for a writ of certiorari in the above-referenced case, unless
one is requested by the Court. A signed copy of the Court’s waiver form is enclosed with

this letter.
Thank you very much for your time and assistance.

lly,

    

cc: Thomas C. Wright, Counsel for Petitioner Ralph Lewis
WAIVER

SUPREME COURT OF THE UNITED STATES

Ralph Lewis | Power Research, Ine. et al.

(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO if oy represent some respondents. I am filing th this waiver on behalf of the ° following respondent(s):

  

Please cheek the appropriate bo:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Cor oe |

 

 

Date: 10/12/20 |

(Type or print) Name Brent C. Perry |
© mr. oO Ms. © Mrs. O Miss

Firm Burford P Perry, LLP : : _ a ] : |

Address ‘209 Fannin Street, Suite 2630 oo. |

City & State Houston, Texas : ooo 7 ] Zip 77010 =] - |

Phone (713) 401-9790 ‘| Email ni pperry@burfordperry.com com ; |

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

[Thomas C. Wright, Counsel for Petitioner Ralph Lewis
ce:
